                                    Office of the Inspector General
                    United States Government Accountability Office


GAO/OIG

June 2010
               SEMIANNUAL
               REPORT

               October 1, 2009 –
               March 31, 2010




GAO/OIG-10-5
                                                               Office of the Inspector General
                                               United States Government Accountability Office




Memorandum
Date:        June 15, 2010

To:          Acting Comptroller General Gene L. Dodaro

From:        Inspector General Frances Garcia

Subject:     Semiannual Report—October 1, 2009, through March 31, 2010

In accordance with Section 5 of the Government Accountability Office Act of 2008
(GAO Act), I am submitting my semiannual report for the first half of fiscal year 2010
for your comments and its transmission to the Congress.

During this period, the Office of the Inspector General (OIG) continued its efforts to
finalize a number of actions to implement requirements contained in the GAO Act and
certain provisions in the Inspector General Reform Act of 2008. For example, we
substantially revised and strengthened the OIG order to reflect our statutory role and
responsibilities and are moving forward to obtain the input and concurrence of other
stakeholders, which is an important and necessary step in the process of adopting
and implementing the revised OIG order. We also made changes to the OIG Web site
and the OIG Hotline in order to improve the visibility of OIG and to enhance GAO
employees' understanding of OIG's role, as well as to encourage employees to use the
Hotline to report to OIG any situation involving possible wrongdoing at GAO. In
addition, we continued to participate in the activities of the broader Inspector
General community, including the Council of Inspectors General on Integrity and
Efficiency and the Legislative Branch Inspectors General quarterly meetings.

Audits and Inspections

During the reporting period, we issued two audit reports with recommendations and
conducted an inspection. The audits evaluated GAO’s (1) testimony performance
measure 1 and (2) information security program and practices for fiscal year 2009. 2
(See the attachment for a summary of these reports and GAO actions to address the
reports’ recommendations.) Furthermore, we completed the first phase of our audit
of GAO’s fiscal year 2009 financial benefit claims of $1 billion or more, which focused

1
GAO, Office of the Inspector General, Testimony Measure: Verification of Performance Data Could
Be Improved, GAO/OIG-10-1 (Washington, D.C.: Nov. 18, 2009).
2
GAO, Office of the Inspector General, Information Security: Evaluation of GAO’s Information
Security Program and Practices for Fiscal Year 2009, GAO/OIG-10-3 (Washington, D.C.: Jan. 4, 2010).


Page 1                                                         GAO/OIG-10-5 Semiannual Report
on the reasonableness of the amounts claimed. As the Acting Comptroller General
requested, we advised him of our results, including that we determined GAO had a
reasonable basis to claim these benefits, before the publication of GAO’s fiscal year
2009 Performance and Accountability Report 3 —hereafter referred to as the annual
performance report. The Inspector General cited this work in her November 5, 2009,
memorandum to the Acting Comptroller General, which was published in GAO’s
annual performance report. Phase two of our financial benefits performance measure
work, part of our ongoing work, analyzes the adjustments that GAO made to claimed
benefit amounts in response to our audit. Our ongoing work also includes a review
examining the effectiveness of agency controls to reduce the risk of employee misuse
of government travel cards.

We also conducted an inspection of the policies and procedures for conducting
investigations used by GAO’s Forensic Audits and Special Investigations mission
team. We did this inspection to determine whether these policies and procedures are
consistent with federal investigation quality standards and were followed for specific
investigative work.

Investigations and Hotline Activities

Regarding our efforts to identify potential fraud, waste, and abuse within GAO, OIG
has a toll-free Hotline number that is staffed by a contractor 24 hours a day, 7 days a
week. 4 The Hotline is OIG’s primary source of complaints. OIG staff also receive
complaints via telephone calls, faxes, e-mail messages, and personal visits during
regular duty hours. During the 6-month reporting period, we addressed 145 inquiries
and allegations (referred to in the following table and text as complaints).

Summary of OIG Activity October 1, 2009 – March 31, 2010

                                                  Complaints

                                                          Closed,
    Open at                         Referred to       insufficient   Referred to               Open at
    start of                         FraudNet        information/    other GAO                  end of
    period         Received   (Non-GAO-related)          no basis          units   Completed    period
    3                  142                 103                 22             5            2       13
Source: GAO OIG.



Of the 3 open cases from the prior semiannual report period, we closed 1 after
conducting some initial investigative work and determining that no additional action
was needed. The other 2 cases remained open at the end of this reporting period.
Also, in this reporting period, we received 142 complaints through our Hotline and
other sources. Because 103 of these 142 complaints concerned matters related to

3
GAO, Performance and Accountability Report—Fiscal Year 2009, GAO-10-234SP (Washington, D.C.:
Nov. 13, 2009).
4
 The toll-free number is (866) 680-7963.


Page 2                                                                 GAO/OIG-10-5 Semiannual Report
other federal agencies, we referred them to GAO’s FraudNet—a governmentwide
Hotline that receives complaints of fraud, waste, and abuse of federal funds. We
assisted the Federal Bureau of Investigation in 1 investigation of a complaint about a
multimillion-dollar fabricated check that was purported to have been issued by GAO,
and we closed another investigation of a complaint submitted by another federal
agency regarding an employee’s potential misrepresentation of GAO or its officials.
This latter investigation, which OIG began then referred to another GAO unit,
determined that the employee did not commit an ethics violation. However, the
investigation did result in the employee undergoing additional training. We closed an
additional 21 cases due to insufficient information or after initial evaluation of the
complaints determined that there was no basis for action. We also referred to other
GAO units another 5 cases that involved e-mail scams, a health-and-safety concern,
and a concern that the format used by GAO in its report products may result in
excessive paper use. At the end of the reporting period, 13 cases remained open,
which included 11 received during this reporting period.

Agency Actions on Recommendations Made in Prior OIG Reports

In response to recommendations made in prior OIG reports, GAO has taken the
following actions:

    •   Based on four recommendations in our report on four GAO performance
        measures that address employee satisfaction, 5 the agency made the following
        changes. First, to provide greater clarity that the leadership measure assesses
        employee satisfaction with immediate supervisors, GAO changed the measure’s
        name from “leadership” to “effective leadership by supervisors.” Second, to give a
        more complete interpretation of the measures, the agency has provided
        additional information on how the measures are calculated in its annual
        performance report. 6 Third, to provide more useful information on the agency’s
        progress in creating a more diverse work environment, GAO made changes to the
        questions comprising the leadership measure. Fourth, the agency developed
        written procedures to ensure that future changes made to performance
        measures, and any effects from these changes, are promptly reported in its
        annual performance report.

    •   Based on work we had initiated on evaluating the performance data for GAO’s
        timeliness performance measure, GAO completed its analysis of the issues that
        we raised and took some steps to revise how the agency reported the data in its
        fiscal year 2009 annual performance report. Our work focused on GAO’s
        electronic customer feedback form and its question on customer satisfaction

5
GAO, Office of the Inspector General, Four People Measures: Many Attributes of Successful
Measures Met; Opportunities Exist for Further Enhancements, GAO/OIG-09-3 (Washington, D.C.:
Aug. 31, 2009).
6
 All four measures are derived from staff’s responses to GAO’s Employee Feedback Survey.




Page 3                                                           GAO/OIG-10-5 Semiannual Report
     with the timeliness of GAO reports. The answers to this question provide the
     basis for the performance measure data. Among the actions taken, GAO no
     longer represents its electronic customer feedback form as a survey to avoid any
     confusion that this outreach approach meets standards and guidelines for
     statistical surveys. Also, to assist readers in understanding GAO’s approach, the
     agency has added an explanation of how it calculated its on-time percentage in
     its annual performance report.

Moreover, GAO took final action that closed two open recommendations from a
report issued prior to this reporting period. Based on our September 2008 report on
diversity at GAO, 7 the agency made final its order 8 to establish an annual requirement
for a Workforce Diversity Plan and to clarify responsibilities and procedures when a
complaint involves staff within GAO’s Office of Opportunity and Inclusiveness.

Finally, I want to thank GAO’s Executive Committee, managers, and staff for their
cooperation during our reviews.

Attachment

cc: Chief Administrative Officer, GAO
    Acting General Counsel, GAO
    Chair and Members, GAO Audit Advisory Committee




7
GAO, Office of the Inspector General, Diversity At GAO: Sustained Attention Needed to Build on
Gains in SES and Managers, GAO-08-1098 (Washington, D.C.: Sept. 10, 2008).
8
 GAO, Order 2713.2, Discrimination Complaint Resolution Process (Washington, D.C.: Dec. 9, 2009).


Page 4                                                           GAO/OIG-10-5 Semiannual Report
Attachment I


                   Summary of GAO Office of the Inspector General
                             Reports and GAO Actions


Reports Issued October 1, 2009, through March 31, 2009 9

Testimony Measure: Verification of Performance Data Could Be Improved
(GAO/OIG-10-1, Nov. 18, 2009)

Findings: The Office of the Inspector General (OIG) found that the number of
hearings was slightly less than the 304 reported as performance data for fiscal year
2008. Based on the results of our work, the agency’s Office of Congressional
Relations reviewed the fiscal year 2008 data and stated that the actual number of
hearings was 298. The primary reason for the difference was that 5 hearings—at
which two GAO officials provided separate testimonies—were counted twice, for a
total of 10 hearings. We identified several factors that contributed to the difference,
such as the need to update existing procedures to verify the accuracy of testimony
performance measure data.

Recommendation and GAO Actions: OIG recommended that GAO management
include in its revised procedures specific steps for addressing the type of issues
identified in our review and verifying the accuracy of testimony performance data
prior to their publication. GAO agreed with our recommendation and has issued
revised procedures to address the issues discussed in this report. In addition, the
agency has revised the number of hearings that it reports for fiscal year 2008 in its
annual performance reports.


Information Security: Evaluation of GAO’s Information Security Program and
Practices for Fiscal Year 2009 (GAO/OIG-10-3, Jan. 4, 2010) 10

Findings: Overall, the OIG’s evaluation showed that GAO has established an
information security program consistent with the requirements of the Federal
Information Security Management Act of 2002, Office of Management and Budget
(OMB) implementing guidance, and guidance and standards issued by the National
Institute of Standards and Technology (NIST). However, it also found that GAO’s
information security policies and procedures were not always applied, and that some
could be improved to help ensure that they are consistent with the OMB and NIST
guidance. For example, OIG found that during fiscal year 2009, GAO greatly increased
its systems inventory from 12 to 35 systems but did not complete all of the required
security processes and procedures (such as preparing system security plans) for
many of the newly added systems. In addition, GAO’s incident response and handling

9
We also issued our previous semiannual report—GAO, Office of the Inspector General, Semiannual
Report: April 1, 2009, through September 30, 2009, GAO/OIG-10-2 (Washington, D.C.: Dec. 7, 2009).
10
 Because the full report contains sensitive information, only our Highlights page is publicly available
on http://www.gao.gov. However, congressional members can request the full report.


Page 5                                                             GAO/OIG-10-5 Semiannual Report
Attachment I


procedures provide a process for investigating security events, such as a denial-of-
service attack; however, the decision of whether to classify such events as an
incident—and thus, to consider reporting them to other external organizations—
needs additional management involvement. Also, GAO has continued to make
progress in establishing its privacy program and protecting personally identifiable
information. Implementing additional requirements, such as providing annual privacy
awareness training, would help to further strengthen this program.

Recommendations and GAO Actions: This report includes recommendations to
GAO to (1) complete and document required information security processes and
procedures for all systems in the systems inventory, (2) modify the agency’s incident
handling and response procedures to increase Chief Information Officer involvement
in the incident classification process to help ensure that security events are
appropriately classified and reported, and (3) continue efforts to implement
additional requirements for the agency’s privacy program. GAO concurred with these
recommendations and plans to complete implementation of planned actions by
September 30, 2010. GAO reported that its planned actions include the following:
(1) completing system security plans for systems added to GAO’s inventory in fiscal
year 2009; (2) establishing a process to provide the Chief Information Officer with a
monthly briefing on monitored security events that require further analysis; and
(3) drafting a privacy incident response guide with breach identification, notification,
and remediation procedures, proposing revisions to a computer security response
guide, and drafting a privacy training module for all staff.




(998286)


Page 6                                                    GAO/OIG-10-5 Semiannual Report
                          To report fraud, waste, and abuse in GAO’s internal operations, do one of
Reporting Fraud,          the following. (You may do so anonymously.)
Waste, and Abuse in
                      •   Call toll-free (866) 680-7963 to speak with a hotline specialist, available 24
GAO’s Internal            hours a day, 7 days a week.
Operations
                      •   Send an e-mail to OIGHotline@gao.gov.

                      •   Send a fax to the OIG Fraud, Waste, and Abuse Hotline at (202) 512-8361.

                      •   Write to:
                          GAO Office of Inspector General
                          441 G Street NW, Room 1808
                          Washington, DC 20548

                          To obtain copies of OIG reports and testimony, go to GAO’s Web site:
Obtaining Copies of       www.gao.gov/about/workforce/ig.html.
GAO/OIG Reports and
Testimony

                          Ralph Dawn, Managing Director, dawnr@gao.gov, (202) 512-4400
Congressional             U.S. Government Accountability Office, 441 G Street NW, Room 7125
Relations                 Washington, DC 20548

                          Chuck Young, Managing Director, youngc1@gao.gov, (202) 512-4800
Public Affairs            U.S. Government Accountability Office, 441 G Street NW, Room 7149
                          Washington, DC 20548




                          This is a work of the U.S. government and is not subject to copyright protection in the
                          United States. The published product may be reproduced and distributed in its entirety
                          without further permission from GAO. However, because this work may contain
                          copyrighted images or other material, permission from the copyright holder may be
                          necessary if you wish to reproduce this material separately.




                                 Please Print on Recycled Paper
